         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

Efforts by the Department of Energy
to Ensure Energy-Efficient
Management of Its Data Centers




DOE/IG-0865                                 May 2012
                                 Department of Energy
                                   Washington, DC 20585
                                         May 25, 2012


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Efforts by the Department of
                         Energy to Ensure Energy-Efficient Management of its Data Centers"

INTRODUCTION AND OBJECTIVE

In pursuit of its varied set of highly technical missions, the Department of Energy and its prime
contractors rely heavily on various forms of information technology (IT) and related support
equipment and facilities. This includes numerous data centers and server rooms throughout the
Department’s complex. Historically, data center operations have been notorious users of
massive amounts of energy and, by their very nature, often require specially configured physical
space. As demand has increased, the number of data centers has proliferated both within the
Department and throughout government – in fact, the Office of Management and Budget (OMB)
recently noted that the number of data centers serving the Federal sector has increased by 150
percent in the last decade. To address concerns related to energy efficiency, economy of
operations, and cyber security, the Federal government established the Federal Data Center
Consolidation Initiative and the President issued Executive Order 13514, Federal Leadership in
Environmental, Energy, and Economic Performance.

Prior reviews by the Office of Inspector General identified areas where the Department could
improve the management of its IT resources. For example, our audit report on Management of
the Department's Data Centers at Contractor Sites (DOE/IG-0803, October 2008) found that the
Department could save $2.3 million per year through the use of more efficient hardware
technologies such as virtualization, which would allow for increased energy efficiency through
the consolidation of servers. Based on the significant investment in IT infrastructure, the
potential for further savings and the need to improve sustainability, we initiated this audit to
determine whether the Department managed its data centers in an energy-efficient manner.

RESULTS OF AUDIT

The Department had taken certain actions designed to improve the management of its data
centers. Our review, however, identified a number of opportunities to improve the energy
efficiency of its IT operations. In particular, we found that the nine locations we reviewed had
not always implemented effective practices for space configuration and utilization designed to
improve the energy efficiency of data centers. In addition, the Department continued to operate
and maintain excess space within its data centers, a practice that led to energy inefficiencies.
Specifically:

         The Department had not always taken advantage of many commonly recommended
         efficiency measures, many of which could have been implemented at little or no cost.
                                             2


         For instance, IT server racks in 43 of 77 data centers reviewed were not
         configured using hot/cold rows to maximize energy efficiencies. In addition,
         organizations and sites had not always implemented many routine, low or no-
         cost measures designed to enhance efficiencies through better airflow
         management. For example, improvements such as perforated tiles that direct air
         flow from the floor to the servers were placed in less than optimal locations, and
         blanking panels and floor skirting typically used to prevent hot and cold air
         from mixing within or beneath server racks were not used consistently.
         Furthermore, occupancy sensors to control energy usage from lighting and
         separately installed data center electric meters to monitor overall power
         consumption had not always been utilized; and,

         The Department continued to operate data centers and server rooms that were
         not fully utilized, further contributing to inefficiencies. Specifically, more than
         74,000 square feet (26 percent) of space within 77 data centers at 9 sites was
         either vacant or was otherwise inappropriately used. In many cases, we
         determined that this space could have been put to better use.

We found as well that the Department continued to lack visibility over the number of data
centers it funds. Although certain efforts had been completed or were in the planning
stage, the Department had not fully developed and implemented plans to identify all data
centers and server rooms, and, most importantly, consolidate them as appropriate to
increase efficiencies and minimize duplicative operating costs. For example, as of July
2011, the Department’s Chief Information Officer reported to OMB that the Department
operated only 58 Federal unclassified data centers and server rooms encompassing
101,000 square feet. However, we found that this report excluded at least 520 data
centers and server rooms accounting for more than 314,000 square feet at just the 6
contractor-managed sites included in our review. In a number of instances, we noted that
data centers excluded from the Department's inventory – those operated by contractors on
behalf of the Department – were underutilized. We noted that omissions of contractor-
operated data centers continued despite OMB's request that the Department resubmit an
updated and complete final inventory prior to December 31, 2010. In fact, in support of
Executive Order 13514, the Department was to submit a consolidation plan that
specifically included all national laboratory and facility assets, including those within the
scope of the Department's management and operating contracts.

The problems we identified occurred, in part, because the Department had not always
established specific goals or performance metrics, or otherwise incentivized its
organizations and sites to attain the energy-efficiency levels outlined in Executive Order
13514 in a timely manner. For instance, organizations and sites had not fully developed
and implemented plans to identify all data centers and server rooms and consolidate
them, as appropriate, to increase efficiencies and minimize duplicative maintenance
costs. In addition, data center resources and IT equipment were not effectively controlled
to promote efficiency in energy usage and space utilization. Finally, Department
organizations and sites had not effectively coordinated efforts to promote efficiencies
through full utilization of data center space. For example, even though the Pacific
                                             3


Northwest National Laboratory and the Hanford Site were located in close proximity to
one another, each site continued to operate data centers with vacant space. Coordination
between the sites could have enabled equipment to be co-located, thus reducing the need
to lease additional space and secure funding for supporting infrastructure.

Without improvements, the Department will continue to spend more than necessary
operating data centers and server rooms. For instance, as noted in a recent data center
assessment at Headquarters, implementing recommended improvements such as those
noted in our report could result in a 16 percent reduction in energy consumption. While
these reductions were specific to the Headquarters environment, we found that similar
efficiency measures could be taken at each of the sites reviewed. Furthermore, a lack of
coordination regarding advances in energy efficiency may hinder the Department's
progress in meeting Federal and Department energy reduction goals. Also, inadequate
progress relating to data center consolidation resulted in missed opportunities for
potential cost savings related to energy usage and maintenance costs.

Notably, the Department had taken certain actions to improve energy efficiencies
supporting its IT infrastructure. For instance, electricity produced from experimental
solar panels at Sandia National Laboratories had been redirected for data center usage. In
addition, Los Alamos National Laboratory's Weapons Complex used a software program
to help determine the optimal placement of equipment. These are positive actions;
however, additional effort is necessary to ensure that all data centers operated by or on
behalf of the Department are managed in an energy-efficient manner.

Therefore, we have made several recommendations that, if fully implemented, should
improve the Department's ability to reduce energy usage and related costs associated with
its computing environment.

MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated that it had
initiated actions to address issues identified during our review. Management stated that it
would work to conduct assessments of data centers and implement performance metrics
for improving energy efficiencies. In addition, management commented that it would
improve coordination between organizations and sites to help enhance energy efficiency
and consolidation practices. Management stated that our findings were reasonable and
that the recommendations provided effective insight to correct discrepancies and improve
the energy efficiencies of the Department's data centers. Management's comments are
included in Appendix 3.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Acting Under Secretary of Energy
      Acting Under Secretary for Science
                                    4


Under Secretary for Nuclear Security
Acting Administrator, Energy Information Administration
Acting Chief Information Officer
Chief Health, Safety and Security Officer
Chief of Staff
REPORT ON EFFORTS BY THE DEPARTMENT OF ENERGY TO
ENSURE ENERGY-EFFICIENT MANAGEMENT OF ITS DATA CENTERS


TABLE OF
CONTENTS


Data Center Management

Details of Finding ................................................................................................................1

Recommendations and Comments .....................................................................................10


Appendices

1.    Objective, Scope and Methodology ...........................................................................12

2.    Prior Reports...............................................................................................................14

3.    Management Comments .............................................................................................15
EFFORTS BY THE DEPARTMENT OF ENERGY TO ENSURE ENERGY-
EFFICIENT MANAGEMENT OF ITS DATA CENTERS

DATA CENTER                        The Department of Energy (Department or DOE) had not always
MANAGEMENT                         managed its data centers and server rooms 1 in an energy-efficient
                                   manner. At the locations reviewed, sites reported maintaining over
                                   530 data centers and server rooms with a combined area of more
                                   than 343,000 square feet. However, we determined that
                                   organizations and sites had not always implemented effective
                                   practices for space configuration and utilization designed to
                                   improve the energy efficiency of data centers. In addition, the
                                   Department continued to operate and maintain excess space within
                                   its data centers, a practice that led to further inefficiencies.

                                                              Data Center Energy Efficiency

                                   Although certain actions had been taken, we found that the nine
                                   locations reviewed, including Headquarters, had not always
                                   implemented effective space configuration and utilization practices
                                   designed to improve data center energy efficiency and reduce
                                   operating expenses. In particular, information technology (IT)
                                   equipment was not always configured to maximize efficiencies and
                                   reduce costs. In addition, organizations and sites had not
                                   implemented many routine measures to enhance efficiencies.
                                   Finally, we noted that occupancy sensors to control energy usage
                                   from lighting, and separately installed data center electric meters
                                   monitoring overall power consumption, had not always been
                                   utilized.

                                   IT server racks in 43 of 77 data centers reviewed were not
                                   configured using hot/cold rows to maximize energy efficiencies.
                                   As noted by industry best practices 2, a significant benefit of using
                                   a hot/cold row configuration is increased cooling system
                                   efficiencies and the potential to save up to 15 percent of a data
                                   center's electricity costs on an annual basis. We found that the
                                   National Energy Technology Laboratory (NETL) constructed a
                                   new facility in 2009 that housed its data center. At the time of our
                                   review, however, the server racks had not been configured in the
                                   most energy-efficient manner. Specifically, racks were not placed
                                   in hot and cold rows, which prevented adequate segregation of the
                                   equipment's hot exhaust air and cooler supply air. In addition, hot
                                   or cold row containment, which prevents air from mixing around
                                   the rows or allows for the capture and reuse of warm air in


1
  During the course of our audit, we used the Federal Data Center Consolidation Initiative (FDCCI) definition of a
data center, which included rooms/facilities greater than or equal to 500 square feet that housed computer systems
(servers) and associated components, while a server room was less than 500 square feet.
2
  Sun Microsystems, Site Planning Guide of Entry-Level Servers, Version 1.4; and, Data Center Energy Efficiency
Best Practices.

Page 1                                                                                       Details of Finding
                                   other locations, was not used. According to one industry study 3,
                                   containment systems could yield energy savings greater than 20
                                   percent. In comments to our report, NETL management stated that
                                   subsequent to our review, a partial reconfiguration of the
                                   Morgantown data center had taken place. At various other
                                   locations, server racks were placed in ad hoc configurations that
                                   restricted airflow, which caused air-conditioning units to run less
                                   efficiently and at potentially greater costs than if racks were
                                   properly configured. In contrast, Sandia National Laboratories
                                   (SNL) tested the advantages of a cold-row containment system for
                                   use in a high performance computing environment and realized
                                   operating efficiencies of nearly $30,000 per year through the
                                   reduced use of air-conditioning units.

                                   Organizations and sites also had not always implemented many
                                   routine low or no-cost measures designed to enhance efficiencies
                                   through better airflow management, such as perforated tiles,
                                   blanking panels and floor skirting. For instance:

                                        • Perforated tiles, which are used to direct airflow from the
                                          cooling units, were placed ad hoc, without regard for
                                          energy conservation considerations such as increased
                                          airflow uniformity or decreased airflow leakage within data
                                          centers and server rooms at eight of nine locations
                                          reviewed;

                                        • Panels used to fill empty spaces in server racks and
                                          optimize airflow by minimizing the mixing of hot and cold
                                          air were not utilized consistently. Industry best practices 4
                                          noted that blanking panels were an inexpensive and integral
                                          part of containment systems within data centers that could
                                          reduce energy expenses up to 2 percent;

                                        • Only one site reviewed, the Fermi National Accelerator
                                          Laboratory (Fermi), had adopted the practice of using
                                          skirting along the floor to prevent additional air gaps below
                                          the server racks in each of its data centers. This practice
                                          can be helpful to prevent cooled air from mixing with
                                          warmer air, thus enabling the air-conditioning units to
                                          operate more efficiently and lower energy costs;

                                        • Inconsistencies also existed in the row-to-row spacing of
                                          server racks in room layouts. For instance, at the

3
 Dell, The Energy Advantages of Containment Systems.
4
 Dell, Rack Blanking Panels – To Fill or Not to Fill, February 2011; and, Data Center Energy Efficiency Best
Practices.

Page 2                                                                                     Details of Finding
                                              Headquarters Germantown data center, spacing ranged
                                              from 2 to 16 feet even though industry recommendations 5
                                              generally call for spacing of 3 to 4 feet. As noted by
                                              various industry studies, standardizing and minimizing
                                              row-to-row spacing in data centers could optimize
                                              equipment footprints and limit the amount of space to be
                                              cooled, potentially increasing efficiencies and reducing
                                              energy costs; and,

                                          • At eight locations, IT equipment cabling was kept below
                                            the floor rather than on trays above the server racks,
                                            resulting in restricted airflow and increased cooling costs.
                                            As noted by the Federal Energy Management Program
                                            (FEMP), congested cabling below raised floors can sharply
                                            reduce the total airflow and degrade the airflow distribution
                                            of perforated floor tiles, promoting the development of hot
                                            spots. Certain data center officials commented during the
                                            audit that they had begun removing legacy wiring to
                                            improve air flow, lower costs and improve maintenance
                                            time frames. However, other data center operators
                                            explained that they continued to maintain wiring under the
                                            floor so that it would not be visible.

                                     Occupancy sensors to control energy usage from lighting and the
                                     use of separately installed data center meters monitoring overall
                                     power consumption had not been utilized at most of the data
                                     centers reviewed. Specifically, occupancy sensors can reduce
                                     energy consumption by turning off lights when a room is empty.
                                     However, only 1 of 77 data centers reviewed, a room at the Pacific
                                     Northwest National Laboratory (PNNL), had sensors installed. In
                                     addition, Headquarters, NETL and the Albuquerque Complex had
                                     temporarily used metering equipment to establish estimated energy
                                     usage baselines, but none had permanently installed meters to
                                     separate each data center's electrical usage from the rest of the
                                     building or had submetered IT equipment from its supporting
                                     infrastructure. Implementing power monitoring mechanisms such
                                     as this could allow officials to monitor the energy performance of
                                     data centers and IT equipment and set measurable goals for
                                     reducing energy usage.

                                     In preliminary comments to our report, the Department stated that
                                     it had performed an assessment and became aware of opportunities
                                     to reduce energy consumption in its Germantown data center. It
                                     noted, however, that improvements were delayed to provide a
                                     stronger baseline for a Headquarters Energy Savings Performance

5
    Sun Microsystems, Site Planning Guide of Entry-Level Servers, Version 1.4.

Page 3                                                                               Details of Finding
         Contract (ESPC) pilot project. Although the ESPC may be
         beneficial when implemented, we noted that Headquarters officials
         had only recently begun making a determination as to whether an
         ESPC would be feasible, more than a year after the initial
         assessment was completed.

                              Excess Data Center Space

         During our review, we also found that the Department continued to
         operate data centers and server rooms that were not fully utilized,
         further contributing to inefficiencies in managing space. As noted
         by the Office of Management and Budget's (OMB) FDCCI, the
         significant growth in the Federal government's data centers was
         costly, inefficient and had a significant impact on energy
         consumption. In addition, agencies reported many underutilized
         data centers that further contributed to inefficiencies. Furthermore,
         the June 2010 Presidential Memorandum, Disposing of Unneeded
         Federal Real Estate – Increasing Sales Proceeds, Cutting
         Operating Costs, and Improving Energy Efficiency, called for
         agencies to take immediate steps to better use real property as
         measured by, among other things, utilization and occupancy rates
         and energy efficiencies.

         Our review of 77 data centers at 9 locations, including
         Headquarters, identified more than 74,000 square feet of space that
         was either vacant or not being used for its designed purpose. This
         represented over 26 percent of the total data center space that we
         reviewed. We found a number of inefficiencies related to
         maintaining excess space, such as unnecessary cooling expenses
         and failure to utilize empty space when possible. As noted below,
         we determined that the excess space could have been put to better
         use. For example:

             • At the time of our review, over 3,000 of approximately
               4,500 square feet (68 percent) of usable space at NETL's
               Morgantown data center was cooled even though it was
               empty. As highlighted in our Management Alert on
               Planned Actions Related to the National Energy
               Technology Laboratory's Simulation-Based Engineering
               User Center (OAS-RA-11-08, April 2011), NETL had
               planned to install additional data center capacity for a
               computing effort even though there was existing space.
               Furthermore, at least one NETL official noted that it would
               be possible to separate the unused data center space from
               the occupied space in an effort to help reduce cooling costs;
               and,



Page 4                                                    Details of Finding
                         • At Headquarters, we found that the Department was paying
                           to cool 7,530 square feet of space in the Forrestal data
                           center maintained by the Office of Energy Efficiency and
                           Renewable Energy (EERE) and the Energy Information
                           Administration (EIA) that was vacant or could have been
                           put to better use. Although the Department's 2011
                           Strategic Sustainability Performance Plan (Sustainability
                           Plan) and the July 2011 FDCCI inventory included the
                           future consolidation of data centers managed by EERE and
                           EIA into the Department's data center in Germantown,
                           Office of the Chief Information Officer (OCIO) officials
                           had not coordinated with the organizations regarding
                           consolidation. EIA had previously expressed concerns with
                           housing its equipment within the Department's data center,
                           but we noted that the Sustainability Plan was submitted to
                           OMB prior to addressing those concerns. In preliminary
                           comments on our report, EERE and EIA officials indicated
                           that they were working with the Office of Management and
                           OCIO to consolidate existing data center space by
                           relocating within the Forrestal facility. Officials
                           commented that the new space will be designed to
                           implement various best practices in energy efficiencies,
                           while also reducing the overall square footage.
                           Specifically, EIA agreed with our conclusion that the
                           existing facility was much larger than necessary for current
                           and projected requirements, not energy efficient and had
                           many other drawbacks. EIA officials noted that our
                           findings supported the need to reduce existing data center
                           space and improve energy efficiencies and that the
                           Forrestal data center project has been fast tracked and will
                           soon enter the second phase of construction.

Metrics, Resources   The problems we identified occurred, in part, because the
and Coordination     Department had not always established specific goals and
                     performance metrics for organizations and sites to identify, share
                     and implement energy-efficient practices designed to lower energy
                     usage and related costs of data centers in a timely manner. In
                     addition, data center resources and IT equipment were not
                     effectively controlled to promote efficiency in energy usage and
                     space utilization. Finally, organizations and sites had not
                     effectively coordinated efforts to promote efficiencies through full
                     utilization of data center space.

                                Goals, Performance Measures and Incentives

                     The Department had not always established specific goals or
                     performance metrics, or otherwise incentivized its organizations

Page 5                                                               Details of Finding
         and sites to attain the energy-efficiency levels outlined in Executive
         Order 13514, Federal Leadership in Environmental, Energy, and
         Economic Performance, in a timely manner. Officials noted in
         preliminary comments on our report that, subsequent to our audit
         work, the Department had outlined performance metrics to be
         achieved through Fiscal Year (FY) 2015 related to managing data
         centers as part of its 2011 Sustainability Plan. Targets were related
         to separately metering data centers, utilization rates of equipment
         and completion of energy assessments using Data Center Profiler
         (DC Pro), a software program funded by EERE at a cost of
         approximately $1.1 million and designed to identify potential
         energy-efficiency improvements for both government and
         commercial data centers. However, none of the field sites reviewed
         had established similar measures that could have been used to
         support the Sustainability Plan. Such measures should be included
         in planning documentation to help increase visibility over data
         center efficiencies that could result in reduced costs over a period of
         time.

         Although certain efforts had been completed or were in the
         planning stage, the Department had not fully developed and
         implemented plans to identify all data centers and server rooms
         and consolidate them, as appropriate, to increase efficiencies and
         minimize duplicative operating costs. Implementation of such
         plans could have been used to incentivize sites to enhance
         efficiencies and reduce operating costs. For example, as of July
         2011, the OCIO identified for the FDCCI that the Department
         operated only 58 Federal unclassified data centers and server
         rooms encompassing 101,000 square feet. However, we found that
         it excluded at least 520 data centers and server rooms accounting
         for more than 314,000 square feet at the 6 contractor-managed
         sites reviewed. In a number of instances, we noted that data
         centers excluded from the Department's inventory were
         underutilized. As noted by FEMP, consolidating underutilized
         data centers into a centralized location could improve the cost-
         effectiveness of energy-efficiency measures by implementing them
         at one location rather than across several. We noted that omissions
         of contractor data centers continued despite OMB's request that the
         Department resubmit its updated and final inventory prior to
         December 31, 2010. In fact, in support of Executive Order 13514,
         the Department was to submit a consolidation plan that included all
         national laboratory and facility assets, including those within the
         scope of the Department's management and operating contracts.




Page 6                                                     Details of Finding
                                       Resources

         Data center resources were not effectively controlled to reduce
         energy consumption and ensure successful implementation of
         Federal guidelines. In particular, site-level funding was often
         provided based on a specific project rather than allowing for a
         centralized pooling of technology resources to ensure more
         efficient operations and placement of IT equipment within data
         centers or server rooms designed to house such equipment.
         Officials at SNL, Los Alamos National Laboratory and Argonne
         National Laboratory (ANL) indicated that researchers frequently
         purchased and installed equipment with project-specific funding,
         which resulted in the creation of new data centers and server rooms
         that required additional resources to support the infrastructure.
         Utilization of a central fund for IT resources could have helped
         ensure acquisitions were conducted in a manner that minimized
         duplication and maximized the benefit from investments in
         technology.

         In addition, central IT functions were generally funded through an
         overhead rate charged to the sites' various projects. At some sites,
         officials noted that efforts to consolidate resources into more
         efficient facilities specifically designed to house data center
         equipment were met with resistance from project officials
         unwilling to cede control of equipment purchased using project
         resources. Further, while PNNL charged a higher overhead rate
         for data center space compared to general office space, overhead
         rates may not have appropriately reflected the true cost of data
         center operations throughout the Department. For example,
         beginning in FY 2011, Headquarters standardized the rate charged
         for square footage in its facilities rather than associate unique costs
         to space dependent on its purpose, as had been done in the past.
         Spreading the cost of data center space, including electricity
         consumption, equally across organizations did not provide an
         incentive to increase the efficiency of space managed.

         Finally, alternative funding sources had not been fully evaluated by
         the Department to improve the energy efficiency of its data
         centers. For instance, ESPCs can allow Federal agencies to
         accomplish energy savings projects without significant up-front
         capital costs. Although Headquarters had initiated an ESPC to
         review its data centers, we found that sites reviewed had not fully
         evaluated the use of ESPCs when planning to secure funding for
         energy-efficient improvements to data centers. For example,
         during our review, an SNL official indicated that limited funding
         resources had prevented the expansion of the solar array
         supporting its data center operations; yet, an ESPC had not been

Page 7                                                      Details of Finding
         considered. In comments on our report, the National Nuclear
         Security Administration noted that funding for IT organizations
         was decreasing while demand for IT services continued to increase
         and believed that organizations must balance investments in major
         energy saving improvements with those needed for IT
         infrastructure improvements to support the mission. We agree that
         such a balance is necessary and continue to encourage the
         Department to explore all possible funding alternatives to improve
         its IT infrastructure.

                                     Coordination

         Organizations and sites had not effectively coordinated efforts to
         ensure efficient utilization of data center space. For instance, site-
         level organizations had not consistently worked together to
         determine how data center space should be utilized in the most
         efficient manner. As reported in our Management Alert on
         Planned Actions Related to the National Energy Technology
         Laboratory's Simulation-Based Engineering User Center, NETL's
         Site Operations Division had not been informed of the Office of
         Research and Development's plan to implement the Simulation-
         Based Engineering User Center project until nearly 3 months after
         the project charter was approved. In preliminary comments to our
         report, the Office of Science noted ongoing projects to coordinate
         and consolidate functions within its Advanced Scientific
         Computing Research program. In addition, EIA commented that
         cooperation at Headquarters among various organizations helped
         to accelerate the Forrestal data center consolidation project. As
         noted in our report, however, additional coordination efforts are
         necessary throughout the Department.

         Finally, the Department did not always minimize duplicative
         infrastructure due to a lack of coordination among and between
         organizations and sites. For example, even though PNNL and the
         Hanford Site are located in close proximity to one another, each
         site continued to operate data centers with vacant space.
         Coordination between the sites may have enabled equipment to be
         co-located, thus reducing the need to lease additional space and
         secure funding for supporting infrastructure. Specifically, one of
         Hanford's contractors maintained a 1,500 square foot backup data
         center, but utilized less than 300 square feet of the space. This
         equipment could have fit within PNNL's newest data center, which
         had nearly 8,000 square feet of vacant space, and eliminated the
         need to lease the space for the backup data center. To its credit,
         Hanford housed equipment for two other Federal agencies, helping
         to reduce the overall Federal IT footprint. We identified, however,
         a similar lack of coordination within the Department in co-locating

Page 8                                                     Details of Finding
                  data centers between the Albuquerque Complex and SNL.
                  Notably, ANL and Fermi had demonstrated that co-location among
                  facilities was possible as each maintained a limited amount of the
                  other's equipment.

Impact and Path   Without improvements, the Department will continue to spend
Forward           more than necessary operating inefficient data centers and server
                  rooms. While organizations and sites were unaware of, and could
                  not calculate, the amount of energy used by data centers and the
                  resulting levels of efficiency that could be achieved, we believe the
                  savings could be significant. For instance, as noted in a recent data
                  center assessment, implementing recommended improvements to
                  air management and cooling systems could result in a 16 percent
                  reduction in energy consumption, saving an estimated $81,600 per
                  year at just the Headquarters Germantown facility. We found that
                  similar efficiency measures could be taken at each of the sites
                  reviewed. Furthermore, as previously identified in our audit on
                  Management of the Department's Data Centers at Contractor Sites
                  (DOE/IG-0803, October 2008), a continued lack of coordination
                  regarding advances in energy efficiency may hinder the
                  Department's progress in meeting Federal energy reduction goals.

                  In addition, the Department continued to maintain over 74,000
                  square feet of conditioned data center space that was either vacant
                  or not being used for its designed purpose. As the Department
                  moves to newer technologies that require a smaller footprint, such
                  as virtualization and cloud computing, the need for data center
                  space will likely decrease, resulting in increased vacant space.
                  Excess data center space could be used for consolidating existing
                  or planned data centers and server rooms, thus preventing future
                  costs associated with constructing or converting other areas into
                  data center space. For example, our review noted that NETL
                  planned to acquire additional computing space at a cost of
                  $3 million while over 3,000 square feet of space remained vacant
                  at its Morgantown site. Although officials commented that the
                  new space will be more efficient than that being replaced, we noted
                  that the opportunity still existed to better utilize the existing vacant
                  data center space. While we realize there may be costs associated
                  with moving additional equipment into data centers and converting
                  data center space into areas suitable for other conditions such as
                  offices, we believe there are significant net savings that could be
                  realized in this area. Finally, inadequate progress related to data
                  center consolidation could result in missed opportunities for
                  potential cost savings related to energy usage and maintenance
                  costs.




Page 9                                                               Details of Finding
                  Furthermore, while we commend the Department for establishing
                  efficiency goals as part of its Sustainability Plan, we believe these
                  targets should be revisited in light of the issues identified in our
                  report. In particular, our findings indicated that the Department
                  may be unable to meet its long-term energy conservations goals.
                  For example, while the Department targeted that 40 percent of data
                  centers would be independently metered in FY 2011, we noted that
                  only 15 of 77 (less than 20 percent) data centers included in our
                  review were separately metered. In addition, only 11 of 77 data
                  centers at 6 of 9 locations reviewed had utilized DC Pro even
                  though the Department's FY 2011 target was 50 percent. Absent
                  sufficient performance metrics, the Department's organizations and
                  sites will be unable to measure progress towards enhancing the
                  energy efficiency of its data centers.

RECOMMENDATIONS   To improve the management of data centers, we recommend that
                  the Under Secretary for Nuclear Security, the Acting Under
                  Secretary of Energy and the Acting Under Secretary for Science, in
                  coordination with the Department's and National Nuclear Security
                  Administration's Chief Information Officers:

                        1. Review existing and planned data center configurations
                           and update them, as appropriate, to take advantage of
                           energy efficiency best practices, including the use of
                           energy assessments;

                        2. Establish and implement effective performance
                           measures for enhancing data center energy efficiency
                           and reducing operating costs, including identification of
                           all existing Federal and contractor data centers and
                           server rooms and development of plans to consolidate
                           them, as appropriate;

                        3. Review and modify, as appropriate, IT funding and
                           resource practices to enable the Department to further
                           realize efficiency improvements and achieve associated
                           Federal goals; and,

                        4. Ensure coordination between organizations and sites,
                           including IT, facilities and scientific personnel, to help
                           enhance energy efficiency and consolidation practices
                           within the Department.

MANAGEMENT        Management concurred with each of the report's recommendations
REACTION          and stated that it had initiated action to address issues identified
                  during our review. For instance, management stated that it will
                  conduct assessments of data centers to determine which ones are

Page 10                                                          Recommendations
                   worthy of further investment and which are candidates for closure.
                   In addition, management stated that it will work to identify
                   compliance with Sustainability Plan goals and performance metrics
                   and will address performance results, as appropriate. Furthermore,
                   management commented that it had aligned site-level
                   environmental, energy and real property planning systems to
                   elevate sustainability in site management and budgeting.
                   Management also noted that it was exploring the use of
                   performance contract vehicles to accelerate transformation of IT
                   infrastructure services that will include significant energy
                   efficiency and data center optimization/consolidation practices.
                   Additionally, management commented that it was enhancing
                   coordination between organizations and sites to address and
                   implement data center energy efficiency, optimization and
                   consolidation projects.

AUDITOR COMMENTS   Management's comments and planned corrective actions were
                   generally responsive to our recommendations. We commend the
                   Department for establishing performance goals as part of its
                   Sustainability Plan and continue to believe that development and
                   implementation of supporting metrics at field sites will be critical to
                   the success of management's stated performance goals. In addition,
                   while management's stated actions related to IT funding and resource
                   practices are supportive of Recommendation 3, the Department may
                   be able to achieve further savings by revisiting how funding is
                   provided for data centers, including evaluation of the need to
                   centralize funding at sites and/or how overhead rates are used to
                   support data center operations. We believe that this recommendation
                   should remain open until potential actions are fully evaluated.
                   Management's comments are included in their entirety in
                   Appendix 3.




Page 11                                                                    Comments
Appendix 1

OBJECTIVE     To determine whether the Department of Energy (Department) is
              managing its data centers in an energy-efficient manner.

SCOPE         The audit was performed between November 2010 and May 2012,
              at Department Headquarters in Washington, DC and Germantown,
              MD; the National Energy Technology Laboratory in Pittsburgh,
              PA, and Morgantown, WV; Los Alamos National Laboratory in
              Los Alamos, NM; the Albuquerque Complex (formerly the
              National Nuclear Security Administration Service Center) and
              Sandia National Laboratories in Albuquerque, NM; the Pacific
              Northwest National Laboratory and Hanford Site in Richland, WA;
              the Chicago Office and Argonne National Laboratory in Argonne,
              IL; and, the Fermi National Accelerator Laboratory in Batavia, IL.

METHODOLOGY   To accomplish our objective, we:

                   •   Reviewed applicable laws and directives pertaining to
                       information technology management, including
                       Executive Order 13514; Presidential Memorandum –
                       Disposing of Unneeded Federal Real Estate, dated
                       June 10, 2010; and Departmental Order 430.2B;

                   •   Reviewed related reports issued by the Office of
                       Inspector General and the U.S. Government
                       Accountability Office;

                   •   Reviewed best practices pertaining to energy-efficiency
                       practices within data centers;

                   •   Reviewed an inventory of site-identified classified and
                       unclassified data centers and server rooms housing
                       equipment supporting business, scientific and high
                       performance computing applications; and,

                   •   Held discussions with field site officials and officials
                       from various Departmental offices.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit objective. Accordingly, we
              assessed significant internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.




Page 12                                    Objective, Scope and Methodology
Appendix 1 (continued)

                    In particular, we assessed the Department's implementation of the
                    GPRA Modernization Act of 2010. Although the Department had
                    established certain overarching performance goals subsequent to
                    our audit work, none of the sites evaluated had established
                    performance metrics specific to data center energy efficiency or
                    space utilization in site performance evaluation plans. Because our
                    review was limited, it would not necessarily have disclosed all
                    internal control deficiencies that may have existed at the time of
                    our audit. We did not rely on computer-processed data to satisfy
                    our audit objective.

                    Management waived an exit conference.




Page 13                                         Objective, Scope and Methodology
Appendix 2

                                       PRIOR REPORTS

   •      Audit Report on Management Alert on Planned Actions Related to the National Energy
          Technology Laboratory's Simulation-Based Engineering User Center (OAS-RA-11-08,
          April 2011). The National Energy Technology Laboratory (NETL) initiated plans to
          use $20 million of American Recovery and Reinvestment Act of 2009 (Recovery Act)
          funds to support a computing project, including $3 million for acquiring and installing a
          Performance Optimized Data Center. Aside from a number of analytical flaws and
          unsupported assumptions within project planning documentation, the audit identified
          that the existing NETL data center contained over 3,000 square feet of usable space
          with no plans on future use.

   •      Audit Report on Management of Energy Savings Performance Contract Delivery
          Orders at the Department of Energy (DOE/IG-0822, September 2009). One goal of the
          Recovery Act was to improve the energy efficiency of Federal facilities that could be
          funded using Energy Savings Performance Contracts (ESPC). ESPCs would allow
          private-sector energy services companies to develop and install energy improvements
          in exchange for a share of the future savings. The audit determined that the Department
          of Energy (Department) had not always effectively used ESPC orders to achieve energy
          savings, nor ensured that the Government's interests were adequately protected in this
          process. As a result, the Department may risk spending up to $17.3 million more than
          it would realize in energy savings.

   •      Audit Report on Department of Energy Efforts to Manage Information Technology
          Resources in an Energy-Efficient and Environmentally Responsible Manner (OAS-RA-
          09-03, May 2009). The Department did not take adequate steps to ensure energy
          efficiency through management of information technology resources. Specifically, the
          sites visited had not implemented the recommended time for standby mode, many
          computers did not have the hibernation feature enabled and energy saving desktop
          devices were not purchased. The Department had not taken important steps to reduce
          energy consumption and properly monitor performance to realize energy savings, and it
          was estimated the Department spent $1.6 million more than necessary on energy costs
          for Fiscal Year 2008 by not adequately addressing the opportunity for savings.

   •      Audit Report on Management of the Department's Data Centers at Contractor Sites
          (DOE/IG-0803, October 2008). The Department had not always taken advantage of
          opportunities to improve the efficiency of its data centers. In particular, as many as 140
          data centers were found at the 6 sites reviewed that duplicated common services such as
          e-mail, data storage and libraries. Furthermore, four of the six sites made only limited
          use of more efficient hardware technologies that conserve energy and reduce
          operational costs. The Office of Inspector General estimated that $2.3 million per year
          for these 6 sites could be saved through the use of more efficient hardware
          technologies.




Page 14                                                                              Prior Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 15                            Management Comments
Appendix 3 (continued)




Page 16                  Management Comments
Appendix 3 (continued)




Page 17                  Management Comments
Appendix 3 (continued)




Page 18                  Management Comments
                                                                    IG Report No. DOE/IG-0865

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report which would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
